CERTIFICATE OF COMPLIANCE
Case No. 19-64
Caption: Lilley v. The State of New Hampshire
As required by Supreme Court Rule 33. l(h),
I certify that the document contains 2,955 words,
excluding the parts of the document that are
exempted by Supreme Court Rule 33.l(d).
I declare under penalty of perjury that the
foregoing is true and correct.
Executed on December 19, 2019.

Record Press, Inc.

Sworn to before me on
December 19, 2019
ALESSANDRA L. KANE
Notary Public, State of New York
No. 01KA6340521
Qualified in Richmond County
Commission Expires April 18, 20 0

